APPENDIX

1a

Appendix A
Opinion of the United States Court of Appeals for the
Seventh Circuit Dated and Decided January 10, 2020

2a

No. 19-1930

In the
United States Court of Appeals
For the Seventh Circuit

SHANIKA DAY, et al.,

v.

Plaintiffs-Appellees,

FRANKLIN WOOTEN, et al.,

Defendants-Appellants.

Appeal from the United States District Court for the
Southern District of Indiana, Indianapolis Division.
No. 1:17-cv-04612 — Tanya Walton Pratt, Judge.

ARGUED NOVEMBER 6, 2019 — DECIDED
JANUARY 10, 2020
Before
EASTERBROOK,
MANION,
and
BARRETT, Circuit Judges.
MANION, Circuit Judge. Terrell Day died
tragically while in police custody on September 26,
2015. This occurred while his hands were cuﬀed
behind his back after he had winded him- self during
a chase following an apparent shoplifting. The autopsy report concluded his cause of death was a lack of

3a

oxy- gen in his blood, caused in part by his obesity, an
underlying heart condition, and restricted breathing
due to having his
hands cuﬀed behind his back. In this § 1983 excessive
force action brought against the arresting oﬃcers, the
district court concluded the oﬃcers were not entitled to
qualified immunity because “reasonable oﬃcers would
know they were violating an established right by
leaving Day’s hands cuﬀed behind his back after he
complained of diﬃculty breathing.” For the rea- sons
set forth below, we disagree with the district court’s
con- clusion of law and accordingly reverse.
I. Background
A. Assumed Facts
Before relating the facts, we first address which
facts we must accept or assume for purposes of this
interlocutory ap- peal of the denial of qualified
immunity. The plaintiﬀs argue we must accept both
“the ‘facts that the district court assumed when it
denied summary judgment,’ and … ‘the plaintiﬀ’s
version of the facts.’” This misstates the standard
established by our case law. We are instead presented
with a choice be- tween “[s]everal sources of
undisputed facts [that] may frame our review” of the
purely legal question presented by a denial of qualified
immunity. White v. Gerardot, 509 F.3d 829, 833 (7th
Cir. 2007). We may “take, as given, the facts that the
district court assumed when it denied summary
judgment.” Id. (quot- ing Washington v. Haupert, 481
F.3d 543, 549 n.2 (7th Cir. 2007)). Alternatively, “we
may conduct our review by ‘accept- ing the plaintiﬀ’s
version of the facts.’” Id.; see also Jewett v. An- ders,
521 F.3d 818, 819 (7th Cir. 2008). And finally, whether
we accept the district court’s assumed facts or the

4a

plaintiﬀ’s ver- sion of the facts, we may also look to
undisputed evidence in the record even if the district
court did not consider it. White, 509 F.3d at 833 n.5;
see also Thompson v. Cope, 900 F.3d 414, 419
(7th Cir. 2018).
Although we are free to choose either the district
court’s assumed facts or the plaintiﬀ’s version, it is
most often appro- priate to accept the facts assumed
by the district court in its denial of summary
judgment. Haupert, 481 F.3d at 549 n.2. Accordingly,
we accept the district court’s statement of facts. See
Day v. City of Indianapolis, 380 F. Supp. 3d 812, 817–
21 (S.D. Ind. 2019). In a few instances, which we note,
we look to un- disputed evidence not included in the
district court’s order but provided elsewhere in the
record.
Terrell Day was eighteen years old and weighed
approximately 312 pounds 1 at the time of his death,
with a history of obesity and an underlying heart
condition. On September 26, 2015, Day was
confronted by a loss-prevention oﬃcer outside the
Burlington Coat Factory at Washington Square Mall
in Indianapolis after Day apparently shoplifted a
watch from the store. Day returned the watch but
refused to return to the store with the loss-prevention
oﬃcer. A mall security oﬃcer who joined the
confrontation noticed Day had a gun in his pocket.
There are varying accounts of what occurred next, but
it is undisputed that a chase ensued in which Day ran
out of the mall, through the parking lot, and across a
Day’s approximate weight was recorded in the
autopsy report. (Appellant’s Separate Appendix
(“S.A.”) at 811.)

1

5a

street to a gas station. He there collapsed on a grassy
slope. Law enforce- ment soon arrived in response to
a radio call describing an armed shoplifter. At this
point, the gun was no longer on Day’s person, but was
lying in the grass a few feet away and out of his reach.
Oﬃcer Denny, the second oﬃcer to arrive on
scene, hand- cuﬀed Day behind his back with a single
set of handcuﬀs. He testified that Day’s hands came
together easily behind his back. He noticed Day was
overweight, sweating, and breathing heavily. Day told
the oﬃcers he was having trouble breathing; Oﬃcer
Denny told Day he had exerted himself by running
and instructed him to take deep breaths in and out to
slow his heart rate. Oﬃcer Denny otherwise did not
observe any signs of distress or of Day’s trouble
breathing.
Oﬃcer Denny initially instructed Day to remain in
an up- right seated position, which he believed to be
the most comfortable position for Day and ideal for the
oﬃcers’ safety. However, Day would not maintain this
position, but instead laid down and rolled down the
slope. After two attempts to keep Day seated upright,
Oﬃcer Denny instead positioned Day to lie on his side.
Oﬃcer Denny believed this was the best course of
action to prevent Day from asphyxiating by rolling
onto his stomach. While repositioning Day, Oﬃcer
Denny observed Day had defecated on himself. He
attributed this to Day having over-exerted himself
during the chase.
Sergeant Wooten arrived shortly after Oﬃcer
Denny detained Day. Sergeant Wooten monitored Day
while Oﬃcer Denny completed his investigative duties
as the arresting officer. Sergeant Wooten and other
oﬃcers repositioned Day several times when he rolled

6a

onto his stomach. Day complained to Sergeant Wooten
that he could not breathe; how- ever, Sergeant Wooten
was skeptical of these complaints be- cause Day also
claimed to have done nothing wrong and was asking to
be released. All the same, Sergeant Wooten called for
an ambulance to evaluate Day approximately five
minutes after Day was initially detained. Sergeant
Wooten observed that Day appeared to calm down and
began to breathe normally.
The ambulance arrived, and two paramedics
examined Day. In response to their questions, Day
told the paramedics he had no preexisting medical
conditions. He was able to speak to them in clear, full
sentences. Their examination involved multiple tests,
including listening to Day’s breathing and checking
his heart rate, respiratory rate, and blood oxy- gen
saturation. 2 Day’s hands remained cuﬀed behind his
back throughout the examination. The paramedics
concluded Day was breathing regularly and normally.
Based on their examination, the paramedics believed
Day did not need to go to a hospital.
At that point, the paramedics asked Sergeant
Wooten to sign a release form so they could transfer
custody of Day back to law enforcement. Sergeant
Wooten did so. The form he signed was called a
“Treatment/Transport Refusal,” and is meant to be
signed by a patient when he refuses to be trans- ported
to the hospital after being evaluated by paramedics.
However, when the paramedics determine a
The record is unclear on the duration of this
examination, but at argument counsel for the officers
estimated it occurred over the course of ten to fifteen
minutes.
2

7a

handcuﬀed prisoner does not need to be transported to
the hospital, they have an oﬃcer sign the form as a
witness of the transfer, not as a representative of the
prisoner.
Oﬃcer Denny requested a “jail wagon” to transport
Day to a detention facility. When the jail wagon
arrived, the driver found Day unresponsive. At that
point Day was lying on his back on the asphalt with his
hands still cuﬀed behind his back. When the driver and
Sergeant Wooten attempted to stand Day up, his legs
straightened and his knees locked. When Day failed to
respond either verbally or physically to two “sternum
rubs” (a painful stimulus administered to an
unresponsive subject’s chest to invoke a reaction), the
driver asked Sergeant Wooten to call a second
ambulance.
The second ambulance arrived with a diﬀerent
team of paramedics, approximately forty-three
minutes after the first ambulance had arrived. 3
Sometime between the departure of the first
ambulance and the arrival of the second, a second pair
of handcuﬀs was added to Day’s wrists. 4 When the
The Coroner’s Report records that the first
ambulance arrived at “ap- proximately 1:09 PM” and
the second ambulance arrived at “approximately 1:52
PM.” (S.A. at 824–25.) Assuming the estimation that
the first medical examination lasted approximately
ten to fifteen minutes is accurate, we can surmise
that roughly thirty minutes passed between the
departure of the first ambulance and the arrival of
the second. The exact amount of lapsed time,
however, is not important for our purposes.
4 Adding a second pair of handcuffs, by attaching one
3

8a

paramedics arrived, Day’s eyes were open, and he was
breathing, but his pulse was weak. Day was loaded
into the back of the ambulance and the paramedics
began to perform CPR. After at- tempting without
success to revive Day for 30 minutes, he was
pronounced dead. The coroner dispatched to the scene
examined Day’s body and found no visible signs of
trauma. However, the autopsy report listed his cause of
death as “Sud- den Cardiac Death due to Acute
Ischemic Change.” Listed as contributory causes were
“Sustained respiratory compromise due to hands
cuﬀed behind the back, obesity, underlying
cardiomyopathy.”
Throughout his time in custody, Day never
complained the handcuﬀs were too tight. Day
complained of trouble breathing, but never indicated
this was caused or exacerbated by the handcuﬀs. The
first team of paramedics never asked the oﬃcers to
remove or modify the handcuﬀs or add a second pair.
In addition to the coroner’s report that Day exhibited
no visible signs of trauma, the autopsy report states
there were no “encircling contusions” or lacerations
around Day’s wrists. 5 The only indication that the
handcuﬀs were causing a respiratory issue was the
autopsy report, which also identified for the first time
his underlying heart condition.
to each wrist and connecting them in the middle, is a
method used on larger arrestees to make the arrestee
more comfortable by lessening the restrictiveness of
the handcuffs. See, e.g., Estate of Phillips v. City of
Milwaukee, 123 F.3d 586, 589 (7th Cir. 1997); Day,
380 F. Supp. 3d at 821.
5 (S.A. at 811.)

9a

B. District Court Proceedings
Day’s mother and father sued under § 1983 in
September 2017, and the defendants moved for
summary judgment. Officer Denny and Sergeant
Wooten
asserted
qualified
immunity. After
considering the summary judgment motion, the district court held Oﬃcer Denny and Sergeant Wooten
were not entitled to qualified immunity. The court
first determined it could not hold as a matter of law
the oﬃcers had not violated Day’s Fourth Amendment
right against unreasonable seizure. Day, 380 F. Supp.
3d at 824–26. The court next concluded “rea- sonable
oﬃcers would know they were violating an established
right by leaving Day’s hands cuﬀed behind his back
after he complained of diﬃculty breathing.” Id. at 827.
In arriving at this conclusion, the district court
cited an un- reported district court case to establish
that oﬃcers act unreasonably by failing to consider an
injury or condition when handcuﬃng an arrestee. Id.
(citing Salyers v. Alexandria Police Dep’t, 2016 WL
2894438, at *3 (S.D. Ind. May 18, 2016)). The district
court also quoted a decision of this court for the
proposition that using excessively tight handcuﬀs and
yanking the arms of non-resisting, non-dangerous
arrestees suspected of committing only minor crimes
is clearly established as unlawful. Id. (quoting Payne
v. Pauley, 337 F.3d 767, 780 (7th Cir. 2003)). Based on
these cases, and the fact that Day complained of
diﬃculty breathing and the oﬃcers “observed some
signs of distress,” the court held the oﬃcers’ conduct
was clearly established as a violation of Day’s rights.
Id. at 828. The court denied qualified immunity. The
oﬃcers appealed.
II. Discussion

10a

A. Jurisdiction
We first address jurisdiction. Appellate
jurisdiction is limited to review of final decisions of
the district courts. 28 U.S.C. § 1291. Although we
generally may not review a district court’s order until
a final judgment is entered resolving all claims of all
parties, the finality requirement is satisfied where a
collateral order “conclusively determines a disputed
question that is separate from the merits of the case
and is eﬀectively unreviewable on an appeal from the
final judgment.” Jones v. Clark, 630 F.3d 677, 679
(7th Cir. 2011) (citing Coopers & Lybrand v. Livesay,
437 U.S. 463, 468 (1978)). A summary judgment
order denying qualified immunity to a public oﬃ- cial
defendant is such an order that can be immediately
re- viewable “to the extent that it turns on an issue of
law.” Id. (citing Mitchell v. Forsyth, 472 U.S. 511,
528–30 (1985)).
The plaintiﬀs assert we lack jurisdiction over this
appeal because the defendants, despite claiming to
concede the district court’s assumed facts viewed in
the light most favorable to the plaintiﬀs, are asserting
their own preferred version of facts on disputed
questions. We have already discussed why the
plaintiﬀs are wrong to argue that we and the
defendants must accept the plaintiﬀs’ version of the
facts in this appeal. It is true, however, that we cannot
decide disputed fact questions in a qualified immunity
appeal. We only have jurisdiction “when the party
seeking to invoke it makes a purely legal argument
that does not depend on disputed facts.” White, 509
F.3d at 833. Therefore, we must first determine
whether the defendants’ argument depends on
disputed issues of fact, which would preclude our

11a

review.
The primary factual dispute identified by the
plaintiﬀs is whether the first team of paramedics’
medical evaluation was terminated because Day was
medically cleared or because Wooten refused further
medical treatment. They assert the district court
acknowledged this as a disputed issue by stating
“Plaintiﬀs believe Sergeant Wooten refused
hospitalization on Day’s behalf, and had he not signed
the Treatment/Transport Refusal form, the
paramedics may have decided to transport Day to the
hospital.” Day, 380 F. Supp. 3d at 820. At argument,
the plaintiﬀs also pointed to evidence that the
paramedics may have included false information in
their medical report or may have been prevented from
con- ducting a full examination due to Day’s hands
being cuﬀed behind his back.
As an initial matter, the suggestion that the
paramedics included false information in their report
or failed to properly complete a full evaluation are
irrelevant to what Oﬃcer Denny and Sergeant Wooten
knew at the time of the incident. Our analysis hinges
on whether reasonable oﬃcers under the
circumstances would know their conduct violated a
clearly established right. Mullenix v. Luna, 136 S. Ct.
305, 308 (2015); Sow v. Fortville Police Dep’t, 636
F.3d 293, 303 (7th Cir. 2011) (holding that, in an
excessive force case, “the ‘reasonableness’ of the use of
force is judged from the perspective of a reason- able
oﬃcer on the scene”). Therefore, the only relevant
question is what the paramedics communicated to the
oﬃcers at the scene.
The district court recognized as undisputed that
the para- medics concluded, based on their evaluation,

12a

“Day did not need to be transported to the hospital for
medical treatment.” Day, 380 F. Supp. 3d at 820. The
paramedics testified that law enforcement has no
authority to refuse transport to a hospital if the
medical personnel believe hospitalization is
necessary. Sergeant Wooten could not terminate the
examination because he had no authority to do so. The
district court also found that when an oﬃcer signs for
a handcuﬀed arrestee, he “signs this form as a witness
to the transfer, not as a representative of the
detainee,” and that the medics require an officer to
sign the form “when [they] decide that a handcuﬀed
prisoner is not going to go to the hospital.” Id. Thus,
regard- less of the title or intended use of the form
Sergeant Wooten signed, there is no genuine dispute
that the paramedics concluded their evaluation
because they believed Day did not need further
treatment.
Moreover, even assuming a factual dispute exists
regarding the termination of the examination, we
need not resolve that dispute to reach our conclusion
today. Even if the oﬃcers were not entitled to rely on
the judgment of the medical professionals, they were
still entitled to qualified immunity because there was
no clearly established law to put the oﬃcers on notice
that handcuﬃng Day under the circumstances of this
case violated his constitutional rights.
The plaintiﬀs also dispute whether a second pair of
hand- cuﬀs was added to Day’s wrists and, if so, when
it was added. But the district court assumed in its
statement of facts that a second pair of handcuﬀs was
added, and that the second pair was added before the
second ambulance arrived. Id. at 821. Since we accept
the district court’s assumed facts for this ap- peal, we

13a

assume this as well. Furthermore, as we explain below, the addition of the second pair of handcuﬀs does
not change the outcome of this case. Accordingly, we
have juris- diction to address the purely legal question
presented by this appeal.
B. Denial of Qualified Immunity
We review de novo a district court’s denial of
summary judgment on a qualified immunity defense.
Rooni v. Biser, 742 F.3d 737, 740 (7th Cir. 2014). As
explained previously, we accept the facts assumed by
the district court and the undisputed record evidence
viewed in the light most favorable to the plaintiﬀs.
White, 509 F.3d at 833 & n.5.
A public oﬃcial defendant is entitled to qualified
immunity unless two disqualifying criteria are met.
First, the evidence construed in the light most
favorable to the plaintiﬀ must support a finding that
the defendant violated the plain- tiﬀ’s constitutional
right. Second, that right must have been clearly
established at the time of the violation. Stainback v.
Dixon, 569 F.3d 767, 770 (7th Cir. 2009). Courts may
“exercise their sound discretion in deciding which of
the two prongs of the qualified immunity analysis
should be addressed first in light of the circumstances
in the particular case at hand.” Pear- son v. Callahan,
555 U.S. 223, 236 (2009). “A clearly established right
is one that is ‘suﬃciently clear that every reasonable
official would have understood that what he is doing
violates that right.’” Mullenix, 136 S. Ct. at 308
(emphasis added).
The Fourth Amendment protects an individual’s
right to be free from unreasonable seizures of his
person. U.S. Const. amend. IV. When an oﬃcer uses
greater force than reasonably necessary to make an

14a

arrest, he violates the arrestee’s Fourth Amendment
right. Payne v. Pauley, 337 F.3d 767, 778 (7th Cir.
2003). Importantly, “the ‘reasonableness’ of the use of
force is judged from the perspective of a reasonable
oﬃcer on the scene, rather than with the 20/20 vision
of hindsight.” Sow, 636 F.3d at 303.
To defeat qualified immunity, however, the right
must be defined more specifically than simply the
general right to be free from unreasonable seizure.
The Supreme Court has stated that “[s]pecificity is
especially important in the Fourth Amendment
context, where … it is sometimes diﬃcult for an oﬃcer
to determine how the relevant legal doctrine, here
excessive force, will apply to the factual situation the
oﬃcer con- fronts.” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018).
The district court defined the rights at issue as
Day’s right to be free from excessively tight handcuﬀs
and his right to have the oﬃcers consider his injury or
condition in determining the appropriateness of the
handcuﬀ positioning. The court concluded that the
oﬃcers’ conduct violated those rights. However, there
is no Seventh Circuit precedent clearly establishing
that the conduct the oﬃcers engaged in violated either
of those rights.
The plaintiﬀs point to Payne v. Pauley, 337 F.3d 767
(7th Cir. 2003), and identify it as the best case to
clearly establish the right to be free from excessively
tight handcuﬀs. The district court quoted and cited
this case for that principle as well. In Payne, we
established the following right: “it was unlawful to use
excessively tight handcuﬀs and violently yank the
arms of arrestees who were not resisting arrest, did
not disobey the orders of a police oﬃcer, did not pose a

15a

threat to the safety of the oﬃcer or others, and were
suspected of committing only minor crimes.” Id. at
780. In Payne, the plaintiﬀ alleged (and we accepted
for purposes of the appeal) that two police oﬃcers
grappled and struggled over her arm for thirty
minutes as they argued about who would handcuﬀ
her, jerked her arm behind her back, slammed
handcuﬀs onto her wrist, tightened them so tight that
she experienced pain and numbness in her hands, and
refused to loosen them when she complained. Id. at
774–75. The plaintiﬀ alleged she was treated this way
even though she was not resisting and had committed no oﬀense other than voicing disagreement with
an irate oﬃcer’s racist remark. Id.
Payne does not help the plaintiﬀs because it
involves circumstances and conduct drastically
diﬀerent than this case. Day was suspected of
shoplifting while armed with a gun, a much more
serious oﬀense than the plaintiﬀ in Payne (who had
allegedly done nothing wrong). It is also undisputed
that Day was not cooperative: he repeatedly changed
position de- spite the oﬃcer’s instructions to remain
seated upright, and he argued with the oﬃcers to let
him go. More importantly, Oﬃcer Denny and Sergeant
Wooten did not violently yank or jerk Day’s arms and
shoulders, or any of Day’s person for that matter.
Furthermore, the handcuﬀs in Payne were much
tighter than they needed to be to accomplish the
purpose of detaining the arrestee, to the point of
causing visible physical injury. There is no suggestion
that the handcuﬀs used on Day were any tighter than
would have been typically used to re- strain an
arrestee in similar circumstances. In fact, the coroner
noted no visible signs of trauma, and the autopsy

16a

report indicated no lacerations or contusions on Day’s
wrists. The rule announced in Payne is inapposite.
The other cases pointed to by the plaintiﬀs to
establish a right to be free from excessively tight
handcuﬀs—Tibbs v. City of Chicago, 469 F.3d 661 (7th
Cir. 2006), and Rooni v. Biser, 742 F.3d 737 (7th Cir.
2014)—similarly fail to clearly establish that the
oﬃcers’ conduct violated that right. Tibbs recognized
that, under certain circumstances, the use of
excessively tight handcuﬀs might constitute excessive
force in violation of the Fourth Amendment. 469 F.3d
at 666 (citing Payne, 337 F.3d at 767). However, we
held the oﬃcer’s actions in that case were objectively
reasonable where the plaintiﬀ complained “once about
his handcuﬀs without elaborating on any injury,
numb- ness, or degree of pain.” Id. Thus, Tibbs
establishes that, absent any indication an oﬃcer is
aware the handcuﬀ tightness or positioning is causing
unnecessary pain or injury, the oﬃcer acts reasonably
in not modifying the handcuﬀs.
Likewise, Rooni establishes the right of a person “to
be free from an oﬃcer’s knowing use of handcuﬀs in a
way that would inflict unnecessary pain or injury, if
that person presents little or no risk of flight or threat
of injury.” 742 F.3d at 742. Once again, the key fact is
that the oﬃcer must know the handcuﬀs will cause
unnecessary pain or injury. Rooni focused on the
importance of multiple and specific complaints by the
arrestee about the nature of his pain or injury. Id. at
742–43 (collecting cases, distinguishing Tibbs because
“plaintiﬀ complained the handcuﬀs were on too tight
but did not indicate the degree of pain,” and a case in
which the plaintiﬀ complained once but did not
elaborate on degree or nature of pain). Because the

17a

plaintiﬀ complained only once that the handcuﬀs were
too tight without further elaboration, we concluded
“there was nothing that would have alerted [the
officer] to the fact that a constitutional violation was
looming.” Id. at 743.
Day never complained that the tightness of the
handcuﬀs was restricting his breathing. The record
contains no evidence that there was any indication the
handcuﬀs were the cause of Day’s breathing diﬃculty
until the autopsy report was re- leased. Thus, Day’s
right “to be free from an oﬃcer’s knowing use of
handcuﬀs in a way that would inflict unnecessary pain
or injury” was not violated. 6
The closely related right asserted by the district
court and the plaintiﬀs is the right to have the
arresting oﬃcer consider the arrestee’s injury or
condition when handcuﬃng the arrestee. The district
court erred, however, by relying on Salyers v.
Alexandria Police Department for the principle that
“oﬃcers act unreasonably by failing to consider an
injury or condition while handcuﬃng an individual.”
Day, 380 F. Supp. 3d at 827. Salyers is an unreported
district court opinion. We have conclusively stated
that district court opinions cannot clearly establish a
constitutional right because they are not binding
precedential authority. Mason-Funk v. City of
Neenah, 895 F.3d 504, 509 (7th Cir. 2018). Therefore,
We reach this conclusion even without relying on the
additional facts that the first paramedic team found
Day’s breathing and oxygen levels to be good, never
requested or attempted to modify Day’s handcuffs,
and concluded he did not need to be hospitalized for
further medical treatment.

6

18a

if the right relied upon in Salyers is a clearly
established one, it must be clearly established by some
other source.
Salyers relied on, and the plaintiﬀs direct our
attention to, our 2009 decision in Stainback v. Dixon,
569 F.3d 767 (7th Cir. 2009). That case involved an
arrestee with preexisting arm- and-shoulder injuries
that were exacerbated when law enforcement
handcuﬀed him behind his back. The arrestee in
Stainback complained the handcuﬀs were hurting his
shoulders, but never told the oﬃcers of his preexisting
injuries. If the oﬃcers had known of the preexisting
injury, we agreed “they certainly would have been
obligated to consider that in- formation, together with
the other relevant circumstances, in determining
whether it was appropriate to handcuﬀ” the arrestee.
Id. at 773. However, we held the oﬃcers were entitled
to qualified immunity because they did not use the
handcuﬀs “in a manner that would clearly injure or
harm a typical arrestee,” and it was not apparent to
the oﬃcers, nor were they informed, that the arrestee
had a preexisting condition that could be aggravated
by the handcuﬀs. Id. “[A] reasonable officer cannot be
expected to accommodate an injury that is not
apparent or that otherwise has not been made known
to him.” Id.
Thus, Stainback only clearly establishes the right
to have a known injury or condition considered,
together with other circumstances, by oﬃcers when
handcuﬃng. Stainback fails to clearly establish that
Oﬃcer Denny and Sergeant Wooten’s conduct was
violative. Just as the arrestee in Stainback
complained generally of shoulder pain but never
explained the effect of the handcuﬀs on his preexisting

19a

injury, Day complained he was having trouble
breathing but never complained that this was caused
or exacerbated by his hand- cuﬀs as opposed to his
exertion during the chase preceding his arrest. The
oﬃcers (and apparently Day himself) were also
unaware of Day’s underlying heart condition, which
also contributed to his lack of oxygen according to the
autopsy report.
In Stainback, we acknowledged “in some cases, the
fact that an act will cause pain or injury will be clear
form the nature of the act itself.” Id. at 772. We
concluded, however, that it would not be clear to the
oﬃcers that the arrestee’s shoulder pain was caused
by the act of cuﬃng his hands behind his back. Id. at
773. It is even less obvious under the circumstances of
this case that Day’s trouble breathing was caused by
hand- cuﬀ positioning. The record does not show this
would be ap- parent to the oﬃcers at the time of the
arrest. 7 Accordingly, like the right in Payne, Rooni,
The plaintiffs suggest that the addition of a second
pair of handcuffs before the second ambulance
arrived is evidence of the officers’ awareness that the
single pair of handcuffs had been restricting Day’s
breathing. This is entirely speculative and goes well
beyond a reasonable inference to which the plaintiffs
are entitled. See White v. City of Chicago, 829 F.3d
837, 841 (7th Cir. 2016). Adding a second pair of
handcuffs indisputably pro- vides more comfort to an
arrestee; there is no reason to believe the second pair
was added to relieve Day’s breathing as opposed to
simply providing more comfort to an arrestee who, at
that late point, was obviously suffering a medical
trauma. In fact, the district court found the officers
7

20a

and Tibbs, the right at issue in Stainback to have a
known injury or condition considered by oﬃcers when
handcuﬃng an arrestee is not implicated by the facts
of this case.
Given the facts as assumed by the district court
and the information known to the oﬃcers at the time
of the arrest, the only right plaintiﬀs can assert would
be the right of an out-of- breath arrestee to not have
his hands cuﬀed behind his back after he complains of
diﬃculty breathing. We find no Seventh Circuit
precedent clearly establishing such a right. The cases
relied upon by the district court and the plaintiﬀs
present circumstances far diﬀerent, and therefore
cannot clearly establish that the oﬃcers’ conduct
violated Day’s rights.
One further point must be addressed. The
Supreme Court has stated that even in the absence of
existing
precedent
addressing
similar
circumstances, “there can be the rare ‘obvious case,’
where the unlawfulness of the oﬃcer’s conduct is
suﬃciently clear.” District of Columbia v. Wesby, 138
added the second pair of handcuffs at that point
“because they believed Day was having a medical
problem,” not because they specifically understood
the handcuffs were causing his breathing difficulty.
Furthermore, even if the addition of the second pair
of handcuffs is evidence that the officers be- came
aware that the first pair was restricting his
breathing, it would then also be evidence that the
officers did consider Day’s medical condition and
modified the handcuffs when it became apparent
they were causing a problem. Either way, this fact
does not help the plaintiffs.

21a

S. Ct. 577, 590 (2018). This case is certainly not one of
those rare obvious cases. As already discussed, the
handcuﬀs were used in a manner that would not have
harmed an average arrestee, and there is no evidence
the oﬃcers were aware the handcuﬀs were causing
Day’s breathing trouble. The oﬃcers’ conduct under
the circumstances was not obviously unlawful.
III. Conclusion
This case arose from an unfortunate tragedy.
However, the oﬃcers did not violate any clearly
established right. Accordingly, the district court’s
judgment denying Oﬃcer Denny and Sergeant
Wooten’s qualified immunity defense is REVERSED
and the case is REMANDED for proceedings consistent
with this opinion.

22a

Appendix B
Order of the United States District Court for the
Southern District of Indiana Dated and Filed
May 13, 2019

23a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
SHANIKA DAY, Individually,
and as Administrator for the
Estate of TERRELL DAY; and
HARVEY MORGAN,
Plaintiffs,
v.

Case No.

THE CITY OF
INDIANAPOLIS;
SERGEANT FRANKLIN
WOOTEN, Individually, and
as an IMPD Officer; and
OFFICER RANDALL
DENNY, Individually, and as
an IMPD Officer,

1:17-cv-04612TWP-TAB

Defendants.
ENTRY ON DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT
This matter is before the Court on a Motion for
Summary Judgment (Filing No. 51) filed by
Defendants City of Indianapolis (“Indianapolis”),
Sergeant Franklin Wooten (“Sergeant Wooten”), and
Officer Randall Denny (“Officer Denny”) (collectively,
“Defendants”). After Terrell Day (“Day”) died while
in the custody of the Indianapolis Metropolitan
Police Department (“IMPD”), Shanika Day, his
mother and the Administrator of his estate, and

24a
Harvey Morgan, Day’s father (collectively,
“Plaintiffs”), brought this suit alleging unreasonable
seizure and excessive force in violation of the Fourth
Amendment to the United States Constitution,
negligence under Indiana law, and loss of child’s
services (Filing No. 19). Defendants argue the
undisputed evidence shows that neither officer
violated Day’s constitutional rights, they are entitled
to qualified immunity, and that Plaintiffs’ state law
claims fail as a matter of law. (Filing No. 53 at 7.)
For the following reasons, Defendants’ Motion for
Summary Judgment is granted in part and denied in
part.
I. BACKGROUND
The following facts are not necessarily objectively
true, but as required by Federal Rule of Civil
Procedure 56, the facts are presented in the light most
favorable to Plaintiffs as the non- moving party. See
Zerante v. DeLuca, 555 F.3d 582, 584 (7th Cir. 2009);
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986).
The facts of this case begin with a confrontation
between Day, an eighteen-year-old with a medical
history of obesity, and Michael Nesbitt (“Nesbitt”), a
loss-prevention officer at a Burlington Coat Factory
(“Burlington”) located in Washington Square Mall in
Indianapolis, Indiana. On September 26, 2015,
Nesbitt observed Day, and a friend enter Burlington
on the store’s surveillance cameras. (Filing No. 52-8
at 10.) Nesbitt believed that he recognized Day as an
individual he had observed stealing from the store on
two prior occasions. Id. at 8-9, 41. On both prior
occasions, Nesbitt had asked Day to leave the store
and said he would be arrested if he returned. Id. at 8.

25a
While watching the stores surveillance video, Nesbitt
believed he saw Day pick up a watch, put it in his
pocket, and exit the store. Id. at 10. He followed Day
out of the store to confront him about the watch and
radioed mall security. Nesbitt was soon joined by mall
security officer Anna Mahoy (“Mahoy”) in the mall
common area. Day first denied having taken anything
from Burlington, but ultimately returned a watch to
Nesbitt. Id. Nesbitt requested that Day return to the
store, but Day refused and began to walk away.
(Filing No. 52-9 at 10.)
Nesbitt and Mahoy’s testimony differ vastly as to
what happened next. Mahoy testified that she noticed
the handle of what looked like a gun sticking out of
Day’s pocket, but she never observed him point or
remove a gun, instead he just returned the watch and
disagreed with returning to the story and he ran. Id.
at 12. Nesbitt alleges that Day removed a gun from
his pocket and pointed it at him, pushed Day and took
cover, and Day began “running through the mall with
the gun in his hand. (Filing No. 52-8 at 13.)
Nesbitt called 911 and reported the events to the
operator. Id. While on the telephone with the 911
dispatcher, Nesbitt alleges that he observed Day
unsuccessfully attempt to carjack two vehicles. Id. at
17-20. Mahoy’s recollection of events again differs—
she testified that Nesbitt chased Day out of the mall
and across the parking lot toward Mitthoeffer Road
and then, when Day changed course, toward 10th
Street. 1 (Filing No. 52-9 at 14-17.) Mahoy did mention
Day attempting to carjack anyone during her
1 Mitthoeffer Road and 10th Street are the two main access
roads bordering Washington Square Mall—Mitthoeffer to the
west and 10th Street to the north. The mall is bound by
Washington Pointe Drive to the east and US-40 to the south.

26a
deposition. 2
Nesbitt continued to chase Day into the parking lot
of a Speedway gas station until Day slipped and fell
on a grassy downslope (Filing No. 52-8 at 21-22.) As
Day laid in the grass behind the Speedway, law
enforcement arrived on the scene. Cumberland Police
Department (“CPD”) reserve officer John Covington
(“Officer Covington”) was the first officer to arrive in
response to a radio call of an armed shoplifter running
from the Burlington store across 10th Street to the
Speedway gas station. (Filing No. 52-2 at 7.) Officer
Covington encountered Nesbitt in the Speedway
parking lot, and Nesbitt pointed out Day’s location—
laying on his back on the grassy slope just north of the
gas station. (Filing No. 52-5 at 10-11.) Officer
Covington parked his vehicle just east of the Speedway
station, three or four car-lengths south of Day. Id. at
11-12. Believing Day was armed, Officer Covington
drew his firearm and exited his police cruiser. Id. at
12. Day was on his stomach with his arms out to the
side or to the top. Id. At 8. While waiting for other
officers to arrive, Officer Covington ordered Day to
show his hands and to point to his gun, which was no
longer on his person. Id. at 13. Day complied with both
orders, pointing out a gun in the grass, which was out
of his reach. Id., Filing No. 52-2 at 8. Officer
Covington kept
Day “under cover” until Officer
Denny arrived on the scene, (Filing No. 52-2 at 8).
2 Plaintiffs dispute much of this portion of the Defendants’
“STATEMENT OF MATERIAL FACTS NOT IN DISPUTE,”
arguing that Nesbitt is unreliable, that his narrative of events
has become more fantastical each time he has reported it, and
that much of his deposition is contradicted by other witnesses or
by video evidence. On a summary judgment motion, the Court
construes any disputed facts in Plaintiffs’ favor as the nonmovants.

27a
Officer Covington then exited his vehicle, approached
Day on foot. Day showed his hands and complied with
the officer’s orders.
Officer Denny placed Day in a single set of chain
handcuffs. Id. at 9, 16. While handcuffing Day, Officer
Denny observed that Day was overweight, sweating,
and breathing heavily. Id. at 16, 18. Officer Denny
repositioned Day so that he was “sitting on his behind”
at the top of the slope with his legs out in front of him
and his hands cuffed behind his back. Id. at 10. Day
informed the officers that he was having trouble
breathing. Id. at 13. Officer Denny told Day that he
had exerted himself by running and that he should
take deep breaths in and out to slow his heart rate. Id.
Officer Denny did not observe any signs of distress,
and never observed that Day was having trouble
breathing.
Officer Denny instructed Day to remain seated
upright in the position he had put him, believing that
would be most comfortable for Day while the officers
completed the investigation and effected the arrest.
Id. at 79. Officer Denny preferred this position
because, while it is comfortable for the detainee, it also
makes it difficult for the detainee to stand because his
hands are cuffed behind his back. Id. at 80. The next
best position for the detainee, in Officer Denny’s
opinion, was to be lying on his side or back. Id. Officer
Denny was aware of the risks posed by a standing
detainee—that he could flee or attack the officers—
because he had dealt with uncooperative detainees in
the past. Id. at 80, 87-89.
As Officer Denny repositioned Day, he noticed that
Day had defecated on himself. Id. at 10. Under the
circumstances, Officer Denny believed that Day had

28a
over-exerted himself. Id. at 86-88. Day was unable to
follow Officer Denny’s instructions about how to
position himself while he was detained and in
handcuffs. When Officer Denny moved Day so that he
was seated upright, Day laid back onto his back and
rolled down the slope a bit. Id. at 92-93. As he started
to roll, Officer Denny sat him back up in the middle of
the slope with his legs out in front of him. Id. Wary
that Day could asphyxiate himself if he rolled onto his
stomach, Officer Denny reprimanded Day to remain in
an upright seated position. Id. at 10-11. Day did not
heed Officer Denny’s instructions and rolled down the
rest of the hill to where the grass met the pavement.
Id. at 11. At that point, Officer Denny decided the best
course of action was to have Day lie down on his side.
Id. at 93.
Shortly after Officer Denny detained Day,
Sergeant Wooten arrived on the scene to assist. Id. at
100. As the arresting officer, Officer Denny had
investigative duties that precluded him from
personally monitoring Day after initially detaining
him. Id. at 89-90. Sergeant Wooten or a CPD officer
remained near Day to monitor him from that point
forward. Id. at 78; Filing No. 52-4 at 58-59. The last
law enforcement officer to arrive on the scene was
CPD Lieutenant Roger Waggoner.
Sergeant Wooten observed Day roll from his side
onto his stomach.
(Filing No. 52-3 at 32.) Sergeant
Wooten and the other officers repositioned Day
several times when he attempted to roll onto his
stomach. Id. at 56; Filing No. 52-2 at 94. Day
complained to Sergeant Wooten that he could not
breathe. (Filing No. 52-3 at 31-33.) Sergeant Wooten
was skeptical of Day’s complaints because Day also
stated that he had done nothing wrong and was asking

29a
for the officers to let him go. Id. Sergeant Wooten
called for an ambulance to evaluate Day
approximately five minutes after Day was initially
detained. Id. at 31; Filing No. 52-2 at 13. As Sergeant
Wooten observed him, Day appeared to calm down
and began to breathe normally. (Filing No. 52-3 at 31.)
The ambulance, staffed by Douglas York (“York”),
a paramedic, and James Brown (“Brown”), an
emergency medical technician, arrived within several
minutes. (Filing No. 52-6 at 14-15; Filing No. 52-14.)
When York and Brown first encountered Day, he was
lying on his back with his hands cuffed behind him.
(Filing No. 52-6 at 21-22; Filing No. 52-7 at 33.) Day
again complained of difficulty breathing but was able
to speak to York and Brown in clear, full sentences.
(Filing No. 52-6 at 25.) Although Day stated that he
could not breathe, York did not observe Day to have
any trouble breathing. Id. at 63. When asked by
medics if he had any medical problems, Day stated
that he did not. Id. at 32.
The medics conducted an evaluation which
involved checking Day’s vitals, obtaining his heart
rate, respiratory rate, and his blood oxygen
saturation. (Filing No. 52-14.) They attempted to
take Day’s blood pressure, but he would not allow
them to. (Filing No. 52-6 at 16.) They also listened
to Day’s lungs with a stethoscope and found bilateral
breath sounds present and clear. (Filing No. 52-14.)
Based on their evaluation, the medics concluded that
Day was breathing regularly and normally. Id.
The medics also conducted a Glasgow Coma Scale
analysis on Day, which determines how oriented and
responsive an individual is on a fifteen-point scale.
Id.; Filing No. 52-6 at 35-36. Day scored a perfect

30a
fifteen. (Filing No. 52-14; Filing No. 52-6 at 36.)
During the medical evaluation Day’s hands remained
behind his back, but at some point, the police and
medics helped him to stand. (Filing No. 52-6 at 40,
82.) Based on their medical evaluation, York and
Brown believed that Day did not need to be
transported to the hospital for medical treatment. Id.
at 62- 64, 70.
When medics decide that a handcuffed prisoner is
not going to go to the hospital, they have an officer
sign as a witness that they are returning the
prisoner back into officer custody. (Filing No. 52-2 at
94.) In order to memorialize that transfer, medics
have a law enforcement officer on the scene sign a
signature of release form.
(Filing No. 52-11 at 3-4;
Filing No. 52-2 at 95-98.) Using the screen on a
tablet, the officer signs this form as a witness to the
transfer, not as a representative of the detainee. Id.
Sergeant Wooten signed the signature of release
form so that law enforcement could regain custody of
Day. (Filing No. 52-3 at 57-60.) Because Day was
handcuffed, the officers did not request that he sign
the form. Id. at 61.
Sergeant Wooten used his finger to sign his name
in a box on a laptop screen. He explained “[i]t’s a
laptop, and it’s got all the information on there, all the
stuff. And then in the lower right corner there’s a box,
and they said can you sign here to release, and I said
yes.” (Filing No. 52-3 at 58-59.) Sergeant Wooten’s
signature was attached to an Indianapolis Emergency
Medical Services form called “Treatment/Transport
Refusal,” which is meant to be signed by a patient
when he refuses to be transported to the hospital after
being evaluated by medics. (Filing No. 52-14 at 5.)
Plaintiffs
believe
Sergeant
Wooten
refused

31a
hospitalization on Day’s behalf, and had he not signed
the Treatment/Transport Refusal form, the medics
may have decided to transport Day to the hospital.
(Filing No. 75 at 16.)
Because Day was once again in law enforcement’s
custody, Officer Denny requested a “jail wagon” to
transport Day to an appropriate detention facility.
(Filing No. 52-2 at 35-36.) Marion County Sheriff’s
Deputy Steve Monday (“Deputy Monday”) was the
driver of the jail wagon. When Deputy Monday
arrived, he spoke to Sergeant Wooten, who explained
why Day was under arrest and notified Deputy
Monday that Day had been evaluated by medics.
(Filing No. 52-10 at 14-15.) Day was lying on his
back when Deputy Monday arrived, and Deputy
Monday lifted Day’s leg to begin searching his shoes
for contraband. Id. at 15. Day was generally
unresponsive to Deputy Monday, and his legs fell to
the ground after Deputy Monday removed his shoes
and Day was unable to answer when Deputy Monday
asked if he was okay. Id. at 15-16. When Deputy
Monday and Sergeant Wooten attempted to stand
Day up, Day’s legs straightened, and his knees
locked. Id. Deputy Monday considered Day
uncooperative.
Deputy Monday was unsure whether Day was
obstinate or was unresponsive because of a medical
issue. He performed a sternum rub—the application
of painful stimulus to an unresponsive subject’s
chest—to see whether Day would respond. Id. at 16.
Day did not respond physically or verbally to the
sternum rub, so Deputy Monday lifted his shirt and
performed another one . Id. Although his eyes were
open, and he was breathing, Day’s lack of response to
the sternum rubs led Deputy Monday to urge Sergeant

32a
Wooten to call for another ambulance. Sergeant
Wooten called for a second ambulance and a different
team of medics was dispatched to the scene. (Filing
No. 52-3 at 82; Filing No. 52-15.) At some point after
the first ambulance left the scene but before the
second ambulance arrived, Officer Denny put a second
pair of handcuffs on Day. (Filing No. 52-2 at 38.)
Using two pairs of handcuffs is meant to make the
detainee more comfortable. Day was telling Officer
Denny that we was having problems breathing, and
Officer Denny chose to add a second pair of handcuffs
because they believed Day was having a medical
problem. Id. at 39-40.
When the second ambulance arrived, the medics
asked the officers near Day to assist them in placing
him on a gurney. (Filing No. 52-5 at 42.) At this
point, Day’s eyes were open, and he was breathing.
Id. at 43; Filing No. 52-3 at 121. Officer Covington
overheard one of the medics say that Day’s pulse was
very weak. (Filing No. 52-5 at 43.) Once Day was
loaded into the back of the ambulance, medics
performed CPR on him. Id.; Filing No. 52-3 at 119.
If they are unable to transport someone to the
hospital in stable condition, the medics are required to
attempt to revive the person for thirty minutes at the
scene. (Filing No. 52-2 at 15.) At 2:30 p.m., after
thirty minutes of attempting to revive Day, the
medics exited the ambulance and pronounced him
dead. Id. at 16; Filing No. 52-15. Deputy Coroner
Carrie England, dispatched to the scene as part of
the Critical Incident Response Team, examined
Day’s body in the ambulance and noted that he had
suffered no visible trauma. (Filing No. 52-19 at 5.)
An autopsy later revealed that Day died of “Sudden
Cardiac Death due to Acute Ischemic Change.”

33a
(Filing No. 52-18 at 2.) The autopsy report listed
contributory causes as “Sustained respiratory
compromise due to hands cuffed behind the back,
obesity, underlying cardiomyopathy.” Id.
Following Day’s death, Plaintiffs brought this suit
alleging unreasonable seizure and excessive force in
violation of the Fourth Amendment to the United
States Constitution against Officer Denny and
Sergeant Wooten in both their official and individual
capacities. (Filing No. 19 at 5-7.) The Complaint also
alleges negligence under Indiana law against both
officers and the City of Indianapolis. Id. at 7-8. Last,
the Complaint alleges a claim of loss of child’s services
for the loss of monetary contribution Day would have
made to the family if he had not died. Id. at 8- 9.
II. LEGAL STANDARD
The purpose of summary judgment is to “pierce the
pleadings and to assess the proof in order to see
whether there is a genuine need for trial.” Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
587 (1986). Federal Rule of Civil Procedure 56
provides that summary judgment is appropriate if
“the
pleadings,
depositions,
answers
to
interrogatories, and admissions of file, together with
the affidavits, if any, show that there is no genuine
issue as to any material fact and that the moving
party is entitled to a judgment as a matter of law.”
Hemsworth v. Quotesmith.com, Inc., 476 F.3d 487,
489-90 (7th Cir. 2007). In ruling on a motion for
summary judgment, the court reviews “the record in
the light most favorable to the non-moving party and
draw[s] all reasonable inferences in that party’s favor.”
Zerante, 555 F.3d at 584 (citation omitted). “However,
inferences that are supported by only speculation or

34a
conjecture will not defeat a summary judgment
motion.” Dorsey v. Morgan Stanley, 507 F.3d 624, 627
(7th Cir. 2007) (citation and quotation marks
omitted). Additionally, “[a] party who bears the
burden of proof on a particular issue may not rest on
its pleadings, but must affirmatively demonstrate, by
specific factual allegations, that there is a genuine
issue of material fact that requires trial.” Hemsworth,
476 F.3d at 490 (citation omitted). “The opposing
party cannot meet this burden with conclusory
statements or speculation but only with appropriate
citations to relevant admissible evidence.” Sink v.
Knox Cnty. Hosp., 900 F. Supp. 1065, 1072 (S.D. Ind.
1995) (citations omitted).
“In much the same way that a court is not required
to scour the record in search of evidence to defeat a
motion for summary judgment, nor is it permitted to
conduct a paper trial on the merits of the claim.”
Ritchie v. Glidden Co., 242 F.3d 713, 723 (7th Cir.
2001) (citations and quotation marks omitted).
“[N]either the mere existence of some alleged factual
dispute between the parties nor the existence of some
metaphysical doubt as to the material facts is sufficient
to defeat a motion for summary judgment.”
Chiaramonte v. Fashion Bed Grp., Inc., 129 F.3d 391,
395 (7th Cir. 1997) (citations and quotation marks
omitted).
III. DISCUSSION
A.
1.

Federal Claims
Official Capacity Claims

Sergeant Wooten and Officer Denny move for
summary judgment on the claims against them in
their official capacities on two grounds. First, they
argue that “[a]ctions against individual defendants

35a
in their official capacities are treated as suits
brought against the government entity itself.”
(Filing No. 53 at 26 (citing Walker v. Sheahan, 526
F.3d 973, 977 (7th Cir. 2008)).) Plaintiffs respond
that their claims against the two officers in their
official capacities should “merge into one claim
against Indianapolis.”
(Filing No. 75 at 20.)
Defendants reply that Plaintiffs’ Amended
Complaint did not plead “any factual content to allow
the Court to draw a reasonable inference that Day’s
purported deprivation of a constitutional right was
caused by an official custom, policy, or practice of the
City.” (Filing No. 79 at 5.)
The Court disagrees. The Plaintiffs’ Complaint
does allow the Court to infer that the officer
Defendants were acting on City policy when they took
some of the actions that support the claim. First, the
Complaint alleges the officer Defendants acted
unreasonably when they handcuffed Day with a single
pair of handcuffs even though he was observably
overweight. (Filing No. 19 at 6.) Moreover, the
Complaint alleges that the officers placed Day on his
back with his hands behind him and left him in that
position for an extended period of time. Id. The
Complaint also alleges that Sergeant Wooten
“recklessly forged/signed Terrell Day’s name to waive
all medical treatment” on his behalf. Id. Designated
evidence shows that these actions are the subject of
IMPD guidelines or are common practices of the
IMPD. (Filing No. 52-2 at 51, 117-119; Filing No. 523 at 67.) The Complaint alleges the officers committed
these actions “under the color of state law, and within
the course and scope of their employment as police
officers”. (Filing No. 19 at 5.) Those allegations
support a constitutional claim against the officers in

36a
their official capacities which, in the Seventh Circuit,
is treated as a claim brought against the government
entity itself. Walker at 977. In this case, that
government entity is the city of Indianapolis.
The Defendants also seek summary judgment on
the claims against the officers in their official
capacities arguing the Plaintiffs “abandoned these
claims” when they “acknowledged in their answers to
the Defendants’ contention interrogatories that they
are not pursuing any Monell claims.” (Filing No. 53
at 26 (citing Filing No. 52-12 at 6.)) In their
contention interrogatories, Defendants
asked:Identify whether you are making a Monell
claim against the City stemming from the Incident.
If you are making a Monell claim, identify with
specificity the alleged policies, practices, or customs
which constitute grounds for imposing entity liability
under 42 U.S.C. §1983 on the City. Additionally,
identify with specificity what constitutional rights
were violated due to the aforementioned policy,
practice, or custom. Further, identify all facts,
documents, testimony, or other evidence which
supports your contention that you possess a Monell
claim. (Filing No. 52-12 at 6.) Defendants’ attorney
responded, “No, I am not making a Monell claim.”
Contention interrogatories, allowed under Federal
Rule of Civil Procedure 33(a)(2), provide parties a
“useful tool to ‘minimize uncertainty concerning the
scope of [a plaintiff’s] claims.’” Deputy v. City of
Seymour, 2014 WL 4907911 at *5 n. 2 (S.D. Ind. Sept.
30, 2014) (citing Vidimos, Inc. v. Laser Lab Ltd., 99
F.3d 217, 222 (7th Cir. 1996) (brackets in original)).
Defendants cite caselaw in which this Court and the
Seventh Circuit have reminded plaintiffs that they
may not change a position they have taken in the past

37a
or amend their complaint through later filings. E.g.,
Zimmerman v. Bd. Of Trus. Of Ball St. Univ., 940
F.Supp.2d 875, 884 (S.D. Ind. 2013); Grayson v.
O’Neill, 308 F.3d 808, 817 (7th Cir. 2002). But they did
not cite any caselaw in which a court found an
argument was waived specifically because of a
plaintiff’s answer to a contention interrogatory.
Plaintiffs argue that they do not make a Monell
claim, but instead they make a claim against
Indianapolis as a municipality based on the city’s
widespread practices underlying Day’s injuries.
Defendants contend that this type of action against
municipalities predated and was unaffected by
Monell. (Filing No. 75 at 20.) But the Plaintiffs
misinterpret City of St. Louis v. Praprotnik, the case
they rely on for that assertion. 485 U.S. 112 (1988).
Praprotnik applies in cases where a municipal
policymaker had sought to insulate herself from
liability that stems from unconstitutional city policies
by delegating her policymaking authority to another
official. Id. at In those “egregious attempts by local
governments to insulate themselves from liability,” a
principle that has not been affected by Monell “ensures
that the most deliberate municipal evasions of the
Constitution will be sharply limited.” Id. at 127. But
Plaintiffs do not allege any such delegation occurred
here. The Complaint seems to allege a
straightforward Monell claim—city police officers, in
their official capacities and following the city’s
policies, violated Day’s constitutional rights. (Filing
No. 19 at 5-6.) Praprotnik is irrelevant to the
Plaintiffs’ claim because they do not allege that any
delegation of policymaking authority occurred here.
That leaves the Court with the question of whether
the Plaintiffs waived their Monell claim by stating

38a
clearly that they were not asserting it in response to
Defendants’ contention interrogatories. Although
there is no case directly on point from any court in this
Circuit, for a contention interrogatory to serve as a
useful tool to “minimize the uncertainty of [a
plaintiff’s] claims,” the defendant must be able to rely
on the answers the plaintiff gives. Vidimos at 222.
Here the Defendants attempted to identify the
Plaintiffs’ claims by asking the Plaintiffs outright if
they asserted a Monell claim. (Filing No. 52-12 at 6.)
By answering in the negative, the Plaintiffs waived
any Monell claim their Complaint might have
asserted. 3
Therefore, summary judgment is granted as to the
Plaintiffs’ official-capacity claims against Sergeant
Wooten and Officer Denny and as to any Monell claim
against Indianapolis that the Complaint might have
Even if the Monell claim was not waived, Plaintiff has failed to
designate sufficient evidence to establish that the City has a
“widespread practice of signing away prisoners’ rights to
medical treatment” or a “practice of placing a single set of
handcuffs on overweight persons and allowing them to have
handcuffs on and lay on their backs for extended periods of
time.” (Filing No. 75 at 20). To hold a municipality liable, the
plaintiff must prove that the municipality’s “deliberate conduct
. . . was the ‘moving force’ behind the injury alleged.” Bd. Of
Cnty. Comm’rs. V. Brow, 520 U.S. 397, 404 (1997). (emphasis in
original). “That is, a plaintiff must show that the municipal
action was taken with the requisite degree of culpability and
must demonstrate a direct causal link between the municipal
action and the deprivation of federal rights.” Id. The plaintiff
carries this burden by proving that “the unconstitutional act
complained of is caused by: (1) an official policy adopted and
promulgated by [the municipality’s] officers; (2) a governmental
practice or custom that, although not officially authorized, is
widespread and well settled; or (3) an official with final policymaking authority.” Thomas v. Cook Cnty. Sheriff’s Dep’t, 604
F.3d 293, 303 (7th Cir. 2009).
3

39a
asserted.
2. Individual Capacity Claims
Defendants Sergeant Wooten and Officer Denny
seek summary judgment on Plaintiff’s claims that
they violated the Fourth Amendment in their
individual capacities. Defendants argue that
Plaintiffs’ claims fail as a matter of law and that, even
if they did not, the officers are entitled to qualified
immunity.
a. Fourth Amendment
The Plaintiffs allege that the officer Defendants
violated Day’s Fourth Amendment right when they
unreasonably seized Day and used excessive force to
apprehend and detain him. Excessive force claims are
analyzed
using
the
Fourth
Amendment’s
“reasonableness” standard in the context of “an arrest,
an investigatory stop or any other type of seizure.”
Stainback v. Dixon, 569 F.3d 767, 771 (7th Cir. 2009).
The Fourth Amendment protects against the use of
force that is not “objectively reasonable.” Kinney v.
Ind. Youth Ctr., 950 F.2d 462, 465 (7th Cir. 1991). The
“right to make an arrest…necessarily carries with it
the right to use some degree of physical coercion or
threat thereof to effect it.” Graham v. Connor, 490
U.S. 386, 396 (1989). However, this right is not
without limits: a “police officer’s use of force is
unconstitutional if, judging from the totality of the
circumstances at the time of the arrest, the officer
used greater force than was reasonably necessary to
make the arrest.” Payne v. Pauley, 337 F.3d 767, 778
(7th Cir. 2003) (citation and quotation marks
omitted).
Fourth Amendment unreasonable seizure claims,
like excessive force claims, are analyzed in light of the

40a
totality of the circumstances to determine the objective
reasonableness of the seizure. To determine the
reasonableness and therefore the constitutionality of
a seizure, courts must “balance the nature and quality
of the intrusion on the individual’s Fourth
Amendment interests against the importance of the
governmental interests alleged to justify the
intrusion.”
Tennessee v. Garner, 471 U.S. 1, 8-9
(1985) (citation and quotation marks omitted). In
considering this balance, whether under an excessive
force or unreasonable seizure claim, the court
considers the severity of the crime at issue, whether
the suspect posed an immediate threat to the safety of
others, and whether the suspect was actively resisting
arrest or attempting to evade arrest by flight.
Graham, 490 U.S. at 396. Here, where the Plaintiffs
allege that the officers’ use of overly tight handcuffs
constitutes excessive force, the Court also considers
the specificity of the detainee’s complaint of pain or
discomfort, Rabin v. Flynn, 725 F.3d 628, 636 (7th Cir.
2013); the number of complaints the detainee made
during the course of the arrest, Sow v. Fortville Police
Dep’t, 636 F.3d 293 (7th Cir. 2011); the injuries the
detainee sustained, Tibbs v. City of Chi., 469 F.3d 661,
666 (7th Cir. 2006); and the medical treatment, if any,
sought by the detainee, from the handcuffing, id.
When balancing these factors, the Court views the
circumstances “from the perspective of a reasonable
officer on the scene.” Graham, 490 U.S. at 396.
Plaintiffs allege Officer Denny’s and Sergeant
Wooten’s use of force was unreasonable because
although Day was clearly obese and out of breath, they
handcuffed Day with a single pair of handcuffs and
allowed him to lay on his back for an extended period
of time. Plaintiffs and Defendants differ on many facts

41a
of this case. For instance, Defendants credit
Burlington loss prevention officer Michael Nesbitt’s
testimony, and therefore assert that “Day pulled out a
gun in a shopping mall, and with gun in hand, fled
from Nesbitt. Shortly after Day began to flee, he
pointed his gun at Nesbitt…. During Day’s flight, he
also unsuccessfully attempted to carjack two different
people.” (Filing No. 53 at 28.) Defendants point out
that Nesbitt’s testimony is contradicted both by video
evidence, which shows that Day begins his flight from
Nesbitt without a gun in his hand, (Filing No. 76-8),
and by the testimony of Washington Square Mall
security officer Anna Mahoy, who testified that she
observed what appeared to be a gun in Day’s pocket,
but that he never removed it (Filing No. 52-9 at 12).
Mahoy also observed law enforcement’s pursuit of Day
to the hill behind the Speedway gas station and did
not testify that she saw Day attempt a carjacking.
As a result of this factual dispute, the parties
disagree as to the severity of the crime committed, a
factor the Court considers under Graham. Defendants
contend that Day pointed a gun at the loss prevention
officer and that he attempted two carjacking’s. (Filing
No. 53 at 28.) Plaintiffs argue that Day merely stole a
$19.99 wristwatch from a department store, and then
returned that watch to the loss prevention officer
before being chased out of the mall. (Filing No. 75 at
22-23.) Designated evidence supports each party’s
version of events, and the Court will not resolve that
conflict at the summary judgment stage.
It is undisputed that a gun rested inches from his
Day’s hand when law enforcement first apprehended
him, and thus Officer Denny’s first handcuffing of Day
was unquestionably reasonable. But after Officer
Denny had handcuffed Day and confiscated his

42a
handgun, it is unclear whether Day was a risk to the
safety of the officers or others at the scene or whether
he was capable of flight. Testimony of the officers and
video evidence reveals that Day was barely able to sit
up. (Filing No. 52-2 at 92-93; Filing No. 76-4; Filing
No. 76-16.) After he was initially handcuffed, it is not
clear that any of the Graham factors weigh in favor of
keeping Day handcuffed in an uncomfortable and
possibly dangerous position.
The evidence, when construed in the light most
favorable to the Plaintiffs, indicates that Day made
several complaints of pain, difficulty breathing and
discomfort to officers. Day never specifically
complained about how tight the handcuffs were, but
he complained multiple times to different officers
and to the medics that he was unable to breathe.
(Filing No. 52-2 at 13; Filing No. 52-3 at 31-33; Filing
No. 52-6 at 25.) After he eventually died of “Sudden
Cardiac Death due to Acute Ischemic Change,” the
autopsy noted that he had “[s]ustained respiratory
compromise due to hands cuffed behind [his] back….”
(Filing No. 52-18 at 2.)
Considering the facts in the light most favorable to
the Plaintiffs, the Court cannot say that the officers
acted reasonably as a matter of law. While the choice
to handcuff Day initially may have been objectively
reasonable, the officers’ conduct after confiscating
Day’s gun could constitute an unconstitutional seizure
under the Fourth Amendment. Some designated
evidence indicates that Day had not committed a
severe crime, that he no longer posed a danger to the
officers, and that he was incapable of flight. Moreover,
he complained numerous times about his difficulty
breathing and ultimately died in part because his
hands were cuffed behind his back, restricting his

43a
breathing.
b. Qualified Immunity
But that conclusion does not end the Court’s
analysis of this claim. Officer Denny and Sergeant
Wooten also contend that summary judgment is
warranted because they are entitled to qualified
immunity. Qualified immunity shields public officials
from civil liability for acts done in their official
capacity, insofar as their conduct does not violate
clearly established statutory or constitutional rights
to which a reasonable person would have known.
Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982). The issue of qualified
immunity is a question of law for the court, not the
jury. Mitchell v. Forsyth, 472 U.S. 511, 526 (1985). To
determine whether qualified immunity applies, the
Court must determine whether, “[t]aken in the light
most favorable to the party asserting the injury, do the
facts alleged show the officer’s conduct violated a
constitutional right?” Saucier v. Katz, 533 U.S. 194,
201 (2001). The Court also determines “whether the
right was clearly established. This inquiry, it is vital
to note, must be undertaken in light of the specific
context of the case, not as a broad general proposition.”
Id. As stated by the United States Supreme Court,
“[t]he judges of the district courts and the courts of
appeals should be permitted to exercise their sound
discretion in deciding which of the two prongs of the
qualified immunity analysis should be addressed first
in light of the particular case at hand.” Pearson v.
Callahan, 555 U.S. 223, 236 (2009).
The Court explained in Section III.A.2.a that,
based on the evidence in the record, a reasonable jury
could find that Officer Denny and Sergeant Wooten

44a
violated Day’s Fourth Amendment right. But the
question of whether Day’s right was clearly
established such that a reasonable officer would have
known his conduct violated the right remains. The
Court must define the right in a particularized, rather
than a general sense. Anderson v. Creighton, 483 U.S.
635, 639 (1987).
Defendants argue that there is no case establishing
“a right which prohibited a non-resisting obese
detainee from laying on his back and on top of his
handcuffs on pavement after medical personnel
informed the officers that he had no medical issues
and could be transported to jail.” (Filing No. 53 at 41.)
“Nor is there any clearly established right for a
suspect to be taken to a hospital despite being
examined by medical professionals, being cleared for
transport to jail, and never having requested to go to
the hospital.” Id.
Plaintiffs respond with several cases that they
argue establish that “officers act unreasonably by
failing to consider an injury or condition while
handcuffing an individual.” (Filing No. 75 at 33.) One
case Plaintiffs cite is Salyers v. Alexandria Police
Dep’t, 2016 WL 2894438 (S.D. Ind. May 18, 2016). In
Salyers, the court denied law enforcement defendants’
motion for summary judgment on a Fourth
Amendment excessive force claim because:
it was clearly established at the time of Salyers’s
arrest that when an officer is made aware that an
arrestee who poses no risks of flight or safety suffers
from a preexisting shoulder injury, the officer must
fully consider the injury and surrounding
circumstances in deciding whether it is appropriate to
handcuff that arrestee behind his back or whether

45a
such restraint would inflict unnecessary pain.

Id. at *3. Citing Stainback at 773 (7th Cir. 2009),
the Salyers court said that:
a body of law has developed holding that if an
officer knows of a preexisting injury or medical
condition that will be aggravated by handcuffing an
arrestee behind his back, the officer is ‘obligated to
consider that information, together with the other
relevant circumstances, in determining whether it [is]
appropriate to handcuff [the arrestee in such a
fashion.]’

Salyers at *3 (brackets original). “If the officer fails
to consider the injury or condition and handcuffs the
arrestee behind his back regardless of his impairment,
the clearly established law provides that the officer
has acted unreasonably.” Id. But a reasonable officer
is not expected to accommodate an injury that is not
apparent or has not otherwise been known to him and
generalized complains of pain are not sufficient to alert
an officer that handcuffing an arrestee will aggravate
a preexisting condition. Id. at *4.
Because whether a right is clearly established
“turns on a fact-sensitive examination of the
dimensions of the constitutional violation, the
question can be difficult to resolve as a matter of law
on summary judgment where the parties’ versions of
events are as far apart as they are in this case.”
Phelps, 2004 WL 1146489, at *12. “If the law did not
put the officer on notice that his conduct would be
clearly unlawful, summary judgment based on
qualified immunity is appropriate,” even if there is an
issue of material fact precluding a finding that the
officer’s actions were reasonable. Saucier, 533 U.S. at
202 (2001), receded from on other grounds, Pearson,

46a
555 U.S. at 236. But, “[w]hen the qualified immunity
inquiry cannot be disentangled from disputed facts,
the issue cannot be resolved without a trial.” Gonzalez
v. City of Elgin, 578 F.3d 526, 540 (7th Cir. 2009).
Here, assuming the Plaintiffs’ version of events
occurred, reasonable officers would know they were
violating an established right by leaving Day’s hands
cuffed behind his back after he complained of difficulty
breathing. It was “well established that it was
unlawful to use excessively tight handcuffs and
violently yank the arms of arrestees who were not
resisting arrest, did not disobey the orders of a police
officer, did not pose a threat to the safety of the officer
or others, and were suspected of committing only
minor crimes.” Payne v. Pauley, 337 F.3d 767, 780
(7th Cir. 2003). While officers were not aware of Day’s
family history of heart problems, Day alerted officers
multiple times that he was having trouble breathing.
It was evident to the officers that Day was at risk of
medical harm; they testified that they were constantly
monitoring him to attempt to keep him in a position
where he would not asphyxiate himself. The cell phone
video shows that Day was unable to stand unassisted
(Filing No. 76-4); he was bleeding (Filing No. 76-2,
Filing No. 76-22), his lips were pale (Filing No. 52-4,
at p. 35:6-8), and he was sweating, (Filing No. 52-2, at
16:21). Day was clearly overweight, winded, and
complained of difficulty breathing (Filing No. 52-2, at
104:3-9). In addition, Officer Denny testified that
Day “was on the verge of hyperventilating a little
bit.” Id. at 13:15-16. This evidence supports a finding
that Officer Denny observed some signs of distress.
And like the detainee in Howard v. Ealing, a case in
which the District Court for the Northern District of
Indiana denied an officer defendant’s claim of

47a
qualified immunity, Day did not present a risk of
harm to officers during the long period in which his
respiratory difficulty aggravated his cardiomyopathy.
Howard v. Ealting, 876 F.Supp.2d 1056, 1075 (N.D.
Ind. 2012) (“Although, when Taylor discovered the
gun, Howard did pose a threat to the officers, once he
was patted down for the second time, handcuffed, and
placed in the squad car, he no longer posed a threat
to the officers.”) The law has clearly established this
conduct as violative and therefore precludes the
officers from qualified immunity.
Officer Denny and Sergeant Wooten are not
entitled to qualified immunity on Plaintiffs’
individual-capacity claims. Defendants’ Motion for
Summary Judgment as to those claims is denied.
B.

State Law Claims

Count II of Plaintiffs’ Complaint, titled
“NEGLIGENCE/WRONGFUL DEATH,” alleges that
the Defendants were negligent in their care of Day
and as a result Day passed away. (Filing No. 19 at
7-8.) To prove negligence under Indiana law,
Plaintiffs must show: (1) a duty owed to the Plaintiff
by the Defendant; (2) a breach of duty by allowing
conduct to fall below the applicable standard of care;
and (3) an injury proximately caused by the
Defendant’s breach. Webber v. Butner, – F.3d –, 2019
WL 1970306 at *3 (7th Cir. 2019). Defendants argue
they cannot have committed negligence because they
acted intentionally. (Filing No. 53 at 42.) That
argument ignores the elements of negligence in
Indiana and finds no support in Indiana or Seventh
Circuit caselaw.
Defendants also argue that the Indiana Tort
Claims Act (“ITCA”) immunizes them from the claim.

48a
The ITCA governs tort claims against governmental
entities and public employees. Veolia Water
Indianapolis, LLC v. Nat’l Trust Ins. Co., 3 N.E.3d 1,
5 (Ind. 2014); Ind. Code 34- 13-3. Under ITCA, a
governmental defendant is personally immune from
liability for acts or omissions within the scope of his
employment. Ind. Code § 34-13-3-5(b). Therefore, only
Indianapolis can be liable under Plaintiffs’ state law
claims on the theory of respondeat superior. See
Ballheimer v. Batts, 2019 WL 1243061 at *12 (S.D.
Ind. March 18, 2019). Thus, Defendants’ Motion for
Summary Judgment is granted with respect to Officer
Denny and Sergeant Wooten on all Plaintiffs’ state law
claims.
Indianapolis argues that a different section of the
ITCA shields it from liability. “Pursuant to the ITCA,
‘governmental entities can be subject to liability for
tortious conduct unless the conduct is within an
immunity granted by Section 3 of [the] ITCA.’” Veolia
Water at 5 (quoting Gary Cmty. School Corp. v. Boyd,
890 N.E.2d 794, 799 (Ind. Ct. App. 2008)). The party
seeking immunity bears the burden of establishing
that its conduct comes within the act. Id. Indianapolis
asserts immunity under section 3(8) of the ITCA
which protects governmental entities or employees
from loss resulting from “[t]he adoption and
enforcement of or failure to adopt or enforce a law
(including rules and regulations).” (Filing No. 53 at
43.) Commonly referred to as “law enforcement
immunity,” the Indiana Supreme Court has said that
“what is ‘required to establish immunity [is] that the
activity be one in which government either compels
obedience to laws, rules, or regulations or sanctions or
attempts to sanction violations thereof.’” F.D. v. Ind.
Dep’t of Child Serv., 1 N.E.3d 131, 138 (Ind. 2013).

49a
It is undisputed that IMPD officers were
investigating a criminal offense—the parties differ
over whether that offense was simple theft, armed
robbery, carjacking, or some combination— when they
arrested and handcuffed Day. Officers testified that
they continued an investigation while Day remained
handcuffed and eventually passed away. (Filing No.
52-2 at 79.) IMPD was plainly attempting to enforce
the law, whether it be the laws against shoplifting or
the laws against carjacking. Because Indiana Code §
34-13-3-3(8) immunizes governmental entities from
liability for activities involving “the adoption and
enforcement of…a law,” the Court grants Defendants’
summary judgment motion on behalf of Indianapolis
as to Plaintiffs’ negligence claim. To the extent
Plaintiffs’ wrongful death and loss of child’s services 4
claims constitute separate state law claims, the same
logic applies to them. Consequently, the Court grants
summary judgment in favor of all Defendants on those
claims as well.
IV. CONCLUSION
For the reasons explained above, Defendants’
Motion for Summary Judgment (Filing No. 51) is
4 Count III of Plaintiff’s Complaint is titled “LOSS OF CHILD’S
SERVICES.” It alleges that as a result of Defendants’ actions,
Plaintiffs “suffer from the loss of Terrell Day’s services and
other monetary contributions,” that Plaintiffs are “deprived of
Terrell Day’s love, companionship kindness [sic],” and that they
“have incurred costs for the funeral and burial of Terrell Day,
and for administering his estate.” (Filing No. 19 at 9.) Count III
does not cite any statute. Defendants argue that this Count and
the wrongful death claim from Count II are not actual standalone claims under Indiana law—just categories of damages.
(Filing No. 53 at 46.) Assuming wrongful death and loss of
child’s services constitute separate state-law claims, ITCA
shields all Defendants from liability as to both.

50a
GRANTED in part and DENIED in part. As to
Plaintiffs’ Fourth Amendment excessive force claim,
the Court grants summary judgment in favor of the
City of Indianapolis and Officer Denny and Sergeant
Wooten in their official capacities but denies
summary judgment as to Officer Denny and Sergeant
Wooten in their individual capacities. The Court
grants summary judgment in favor of all Defendants
on all Plaintiffs’ state law claims.
SO ORDERED.
Date: 5/13/2019
/s/ Tanya Walton Pratt
Tanya Walton Pratt, Judge
United States District Court
Southern District of Indiana

51a
DISTRIBUTION:
Faith Elizabeth Alvarez
LEE COSSEL & CROWLEY LLP
falvarez@nleelaw.com
Nathaniel Lee
LEE COSSEL & CROWLEY LLP
nlee@nleelaw.com
Martin Austin Brown
RUCKELSHAUS KAUTZMAN BLACKWELL
mab@rucklaw.com
Darren Craig Chadd
TAYLOR, CHADD, MINNETTE, SCHNEIDER &
dchadd@tcmsclaw.com
Andrew R. Duncan
RUCKELSHAUS KAUTZMAN BLACKWELL
ard@rucklaw.com
Anne Celeste Harrigan
OFFICE OF CORPORATION COUNSEL CITY OF
INDIANAPOLIS
anne.harrigan@indy.gov
John F. Kautzman
RUCKELSHAUS KAUTZMAN BLACKWELL
jfk@rucklaw.com
Edward J. Merchant
RUCKELSHAUS KAUTZMAN BLACKWELL
ejm@rucklaw.com
Andrew J. Upchurch

52a
OFFICE OF CORPORATION COUNSEL CITY OF
INDIANAPOLIS
andrew.upchurch@indy.gov
Adam Scott Willfond
OFFICE OF CORPORATION COUNSEL CITY OF
INDIANAPOLIS
adam.willfond@indy.gov

53a

Appendix C
Order of the United States Court of Appeals for the
Seventh Circuit Denying Plaintiffs-Appellees’
Petition for Rehearing Dated May 7, 2020

54a

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
May 7, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
DANIEL A. MANION, Circuit Judge
AMY CONEY BARRETT, Circuit Judge
No. 19-1930
SHANIKA DAY, et al.,

v.

Plaintiffs-Appellees,

FRANKLIN WOOTEN, et al.,

Defendants-Appellants.
ORDER
No judge of the court having called for a vote on
the Petition for Rehearing En Banc filed by PlaintiffsAppellees on January 23, 2020, and all of the judges
on the original panel having voted to deny the Petition
for Rehearing,
IT IS HEREBY ORDERED that the Petition for
Rehearing and Petition for Rehearing En Banc is
DENIED.

55a

Appendix D
Order of the United States Court of Appeals for the
Seventh Circuit Dismissing Plaintiffs-Appellees’
Cross-Appeal Dated July 3, 2019

56a

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
July 3, 2019
Before
JOEL M. FLAUM, Circuit Judge
DIANE S. SYKES, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
SHANIKA DAY, et al.,

Plaintiffs-Appellees,

No. 19-1972 v.
FRANKLIN WOOTEN, et
al.,
Defendants-Appellants.

Appeal
from
the
United States District
Court for the Southern
District of Indiana,
Indianapolis Division.
No. 1:17-cv-04612
Tanya Walton Pratt,
Judge.

ORDER
On consideration of the papers filed in this
appeal and review of the short record,
IT IS ORDERED that this
DISMISSED for lack of jurisdiction.

appeal

is

Plaintiffs’ case continues in the district court.
The district court disposed of plaintiffs’ state law
claims, but their Fourth Amendment claims proceed.
Contrary to plaintiffs’ assertions, compelling reasons

57a

do not exist to take up plaintiffs’ appeal at this time.
The district court disposed of plaintiffs’ state law
claims based on an analysis of Indiana law, not federal
law. As such, this appeal is not inextricably
intertwined with defendants’ appeal which involves a
Fourth Amendment excessive force claim. See
Thompson v. Cope, 900 F.3d 414, 420 (7th Cir. 2018)
(qualified immunity analysis is a two- step process:
whether the facts, taken in light most favorable to
plaintiff,
show
that
defendant
violated
a
constitutional right; and whether the constitutional
right was clearly established at the time).
Further, “judicial economy” is an insufficient
justification to invoke the doctrine of pendant
appellate jurisdiction. Rather, it must be “practically
indispensable” to address the merits of the
unappealable order (here, a matter of Indiana law) in
order to resolve the qualified immunity appeal (a
matter of federal law). See Whitaker v. Kenosha
Unified School Dist. No. 1, 858 F.3d 1034, 1043 (7th
Cir. 2017). It is not.

58a

Appendix E
Notice of Removal to the United States District
Court for the Southern District of Indiana Filed and
Dated December 14, 2017

59a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
SHANIKA DAY, Individually,
and as Administrator for the
Estate of TERRELL DAY;
and HARVEY MORGAN,
Individually,
Plaintiffs,
v.

Case No.

THE CITY OF
INDIANAPOLIS and THE
TOWN OF CUMBERLAND,

1:17-cv-04612-

Defendants.
NOTICE OF REMOVAL
PLEASE TAKE NOTICE that Defendant,
Town of Cumberland, by counsel and pursuant to 28
U.S.C. §§1441(a) and 1446, hereby removes to this
Court the state court action described herein. The
grounds for removal are as follows:
1. On September 22, 2017 Plaintiff’s filed a
Complaint for Damages in Marion County Superior
Court, Civil Division 6, under Cause Number 49D101709-CT-036087. A copy of the Complaint for Damage
is attached hereto as Exhibit A.
2. On November 7, 2017, Plaintiff’s filed a
Motion for Leave to File an Amended Complaint. A

60a

copy of the Amended Complaint for Damages is
attached hereto as Exhibit B.
3. On November 29, 2017 Judge David J
Dreyer, Marion Superior Court 10, granted Plaintiffs
leave to file an Amended Complaint for Damages,
Cause Number 49D10-1709-CT-036087. A copy of
Judge Dreyer’s Order is attached as Exhibit C.
4. In the Amended Complaint for Damages, the
Plaintiff alleges rights violations by Defendants which
can be interpreted to be violations under the Fourth
and Fourteenth Amendments to the United States
Constitution and it can be further interpreted that
Plaintiff is pursuing this claim under 42 U.S.C. §1983.
5. This Notice of Removal has been timely filed
pursuant to 28 U.S.C. §1446(b), and a copy of all
process and pleadings served upon Defendants in the
state court action are attached hereto.
6. This action is a civil action of which this
Court has original jurisdiction under 28 U.S.C. §1331,
and is one which may be removed to this Court by
Defendants under 28 U.S.C. §1441.
WHEREFORE, Defendants hereby request this
action removed to the United States District Court for
the Southern District of Indiana.
Respectfully submitted,
/s/ David A. Izzo
David A. Izzo (28196-49)
Selective Staff Counsel of Indiana
11711 N. Meridian Street, Suite 755
Carmel, Indiana 46032
Office: (317) 815-4774

61a

Direct: (317) 815-4773
Fax: (855) 515-8240
Email: david.izzo@selective.com
CERTIFICATE OF SERVICE
I hereby certify the foregoing NOTICE OF
REMOVAL was electronically filed on this 14th day of
December, 2017 through the Court’s CM/ECF system,
and the following parties were served via CM/ECF
system and/or e-mail on the same date:
Nathaniel Lee, Esq.
Jennifer Lee, Esq.
nlee@nleelaw.com
Jlee@nleelaw.com
Adam S. Willfond, Esq.
Adam.willfond@indy.gov
/s/ David A. Izzo
David A. Izzo
Selective Staff Counsel of Indiana
Selective Staff Counsel of Indiana
11711 N. Meridian Street, Suite 755
Carmel, Indiana 46032
Office: (317) 815-4774
Direct: (317) 815-4773
Fax: (855) 515-8240
david.izzo@selective.com

62a

STATE OF INDIANA

COUNTY OF MARION

)
)
) SS:
)
)

IN THE MARION
SUPERIOR COURT
CIVIL DIVISION,
ROOM NO:

SHANIKA DAY, Individually, and
as Administrator for the Estate of
TERRELL DAY, and HARVEY
MORGAN, Individually
vs.

Plaintiffs,

CAUSE NO.:

THE CITY OF INDIANAPOLIS,
SERGEANT
FRANKLIN
WOOTEN, Individually, and as an
IMPD
OFFICER;
OFFICER
RANDALL DENNY, Individually,
and as an IMPD OFFICER; THE
TOWN
OF
CUMBERLAND;
LIEUTENANT
ROGER
WAGGONER, Individually, and as a
CUMBERLAND OFFICER; and
OFFICER JOHN COVINGTON,
Individually
and
as
a
CUMBERLAND OFFICER
Defendant(s)
COMPLAINT FOR DAMAGES:
Come now the Plaintiffs, Shanika Day,
individually, and as Administrator for the Estate of
Terrell Day, and Harvey Morgan, Individually, by

63a

Counsel, and for a cause of action against the
Defendants, THE CITY OF INDIANAPOLIS (“CITY”)
SERGEANT FRANKLIN WOOTEN (“WOOTEN’),
OFFICER RANDALL DENNY (“DENNY”), THE
TOWN OF CUMBERLAND (“CUMBERLAND”),
LIEUTENANT
ROGER
WAGGONER
(“WAGGONER), OFFICER JOHN COVINGTON
(“COVINGTON”), and alleges and states:
1. That SHANIKA DAY is the biological mother of
Deceased Terrell Day, and is appointed to
represent the estate and pursue any and all civil
actions against the Defendants for the wrongful
death of Terrell Day (“Decedent”). Said estate is
filed in Marion County, Indiana, under Cause
Number 49D08-1509-ES-032278.
2. That HARVEY MORGAN is the biological father of
Deceased Terrell Day, and at all times material
and relevant herein has resided in the City of
Indianapolis, County of Marion, State of Indiana.
3. That at all times relevant and material to this
cause of action, Defendant, the CITY was a
municipal corporation in the State of Indiana and
employer of OFFICER RANDALL DENNY and
SERGEANT FRANKLIN WOOTEN
4. That at all times relevant and material to this
cause of action OFFICER RANDALL DENNY and
SERGEANT
FRANKLIN
WOOTEN
were
employees and/or agents of the CITY and acting
under color of the law through their duties as
Police Officers.
5. That at all times relevant and material to this
cause of action, Defendant, TOWN OF

64a

CUMBERLAND was a municipal town corporation
in the Counties of Marion and Hancock, Town of
Cumberland, State of Indiana, and employer of
LIEUTENANT ROGER WAGGONER and
OFFICER JOHN COVINGTON.
6.

WAGGONER and COVINGTON were employees
of, and acting under the color of the law through
certain statutes, customs, ordinances, and official
policies of the TOWN OF CUMBERLAND
POLICE DEPARTMENT.

7. On September 26, 2015, Terrell Day visited the
Burlington Coat Factory located on East
Washington Street, in Marion County, City of
Indianapolis, State of Indiana.
8. On the same date and time, Terrell Day was
chased from the Burlington Coat Factory by a
CUMBERLAND POLICE OFFICER, OFFICER J.
COVINGTON, due to suspicion of pointing a gun
at someone, and shop-lifting.
9. On the same date and time, OFFICER J.
COVINGTON chased Terrell Day approximately
450 meters; that the decedent had stopped,
apparently fatigued and is believed to have
experienced difficulty breathing, near the rear of a
gas station located at 10th and Mitthoeffer Street.
10. That Terrell Day surrendered and did not resist
arrest, or pose as a threat in any way to
OFFICERS
WOOTEN,
COVINGTON,
WAGGONER, and DENNY or the public at large
after his arrest.
11. That
either
WOOTEN,
COVINGTON,
WAGGONER, or DENNY handcuffed Terrell Day

65a

placing his hands behind his back. That the
Officers knew or should have known that the
handcuff was tightly fitted and Terrell Day was
winded and was having trouble breathing.
12. That after his arrest, Terrell Day was placed on the
ground, on his back, on top of the handcuffs. That
the placement by the Officers resulted in the
inability to oxygenate from his winded condition.
13. Terrell Day was required to remain in a position
that restricted his ability to breath for an extended
period of time under the circumstances.
14. Terrell Day was already out-of-breath due to the
physical activity of running, and lying in this
position on the ground with his hands behind his
back caused Terrell Day to lose oxygen at a greater
rate of speed and unable to properly breath.
15. That it is believed that the Officers, at least one or
more of them, recognized that Terrell Day was
experiencing a medical emergency because
emergency medical personnel was summoned to
the scene to render medical assistance to Terrell
Day. That Terrell Day was unable to properly
stand after medical personnel arrived.
16. That medical personnel arrived to render
assistance to Terrell Day. That Terrell Day was
still suffering from a medical emergency, however,
SERGEANT FRANKLIN WOOTEN forged Terrell
Day’s signature waiving his right to medical care
and treatment, despite Terrell Day’s obvious
medical emergency of being unable to breath.
17. Due to the failure to administer medical care,
Terrell Day expired shortly after the ambulance

66a

exited the scene.
COUNT I: UNLAWFUL/UNNECESSARY
PUNISHMENT
Plaintiff incorporates by reference rhetorical
paragraphs one (1) through eighteen (18) above as if
fully set forth herein and makes further allegations
and statements as follows:
18. On September 26, 2015, WOOTEN, COVINGTON,
WAGGONER, and DENNY committed one or more
of the following malicious and reckless acts and/or
omissions:
a. WOOTEN, COVINGTON, WAGGONER, or
DENNY, during the course of the arrest,
wrongfully used excessive force in handcuffing
and forcing Terrell Day to lie on his back with
his hands handcuffed behind him for an
extended period of time even though he was not
resisting arrest or posing a threat.
b. WOOTEN, COVINTON, WAGGONER, and
DENNY did not properly assist, aide, or seek
prompt medical attention for Terrell Day
despite knowledge that Terrell Day was unable
to breath.
c. SERGEANT
FRANKLIN
WOOTEN
intentionally and recklessly forged the
signature of Terrell Day waiving all medical
treatment despite knowledge that he was
unable to breath.
19. That such acts and omission of WOOTEN,
COVINGTON, WAGGONER, and DENNY
constitute an unlawful, unnecessary punishment

67a

all in violation of Terrell Day’s rights under the
Indiana Constitution.
COUNT II – NEGLIGENCE/WRONGFUL DEATH
Plaintiff incorporates by reference rhetorical
paragraphs one (1) through twenty (20) above as if
fully set forth herein and makes further allegations
and statements as follows:
20. On September 26, 2015, either WOOTEN,
COVINGTON, WAGGONER, or DENNY while
acting under the color of state law wrongfully
positioned Terrell Day on the ground while
handcuffed causing him to be unable to breath, and
then denied Terrell Day medical treatment while
in custody, despite knowledge that Terrell Day was
unable to breath.
21. WOOTEN, COVINGTON, WAGGONER, and
DENNY negligently and/or intentionally deprived
Terrell Day of sufficient oxygen which resulted in
cardiac failure.
22. That
SERGEANT
FRANKLIN
WOOTEN
intentionally forged Terrell Day’s signature
waiving all right to medical treatment despite his
inability to breathe or stand at the time.
23. The actions of WOOTEN, COVINGTON,
WAGGONER, and DENNY in failing to provide
adequate medical treatment and care for Terrell
Day while in custody were reckless and negligent,
and beyond all bounds of reasonable care.
24. WOOTEN, COVINGTON, WAGGONER, and
DENNY failed to exercise the utmost reasonable
due care and safety for Terrell Day after he was in

68a

police custody as required by Indiana law.
25. That due to the action of the Defendants Terrell
Day died an untimely death.
26. That said negligence deprived the Terrell Day of
his rights secured by the laws of Indiana.
COUNT III – INADEQUATE TRAINING,
SUPERVISION, AND DISCIPLINE
Plaintiff incorporates by reference rhetorical
paragraphs one (1) through twenty-seven (27) above
as if fully set forth herein and makes further
allegations and statements as follows:
27. The CITY and THE TOWN OF CUMBERLAND
are responsible for establishing the policies,
procedures, customs, and usages complained about
herein.
28. The CITY and the TOWN OF CUMBERLAND had
an obligation and duty to Terrell Day, to properly
train, supervise, and discipline the police officers
of
Indianapolis,
and
the
TOWN
OF
CUMBERLAND
including
WOOTEN,
COVINGTION, WAGGONER, and DENNY
named herein on the use of force when conducting
investigations and effecting arrests, as well as
procedures in seeking immediate medical
attention for persons in custody.
29. That the resulting wrongful death of Terrell Day
was reasonably foreseeable as the natural
consequences of the failure of the CITY and THE
TOWN OF CUMBERLAND, to adequately train,
investigate, and discipline its police officers.
30. That such failure to train, investigate, and

69a

discipline its police officers demonstrates a
deliberate and conscious choice by the CITY and
THE TOWN OF CUMBERLAND to disregard the
protected rights of its citizens of Marion County,
City of Indianapolis, State of Indiana, including
Terrell Day.
31. That such acts and omissions by the CITY and
TOWN OF CUMBERLAND deprived Terrell Day
of his rights secured by the laws of Indiana.
COUNT IV – NEGLIGENT/INTENTIONAL
INFLICTION OF EMOTIONAL DISTRESS
Plaintiff incorporates by reference rhetorical
paragraphs one (1) through thirty-two (32) above as if
fully set forth herein and makes further allegations
and statements as follows:
32. Plaintiffs SHANIKA DAY and HARVEY
MORGAN are the natural biological parents of
Terrell Day, deceased.
33. Plaintiffs SHANIKA DAY and HARVEY
MORGAN, each individually and respectfully, had
a warm and loving relationship with Terrell Day,
deceased, up to the time of his untimely death.
34. Plaintiffs SHANIKA DAY and HARVEY
MORGAN had a protected liberty interest in the
continued warm and loving relationship with
Terrell Day, deceased.
35. That the reckless actions of WOOTEN,
COVINGTON, WAGGONER and DENNY in
failing to seek medical attention for Terrell Day,
forging Terrell Day’s name waiving medical
treatment, and forcing him to remain on his back

70a

while handcuffed ultimately resulted in the death
of Terrell Day, deprived Plaintiffs of their
protected liberty interest causing severe emotional
distress.
36. That WOOTEN, COVINGTON, WAGGONER, and
DENNY knew or should of known that their
actions would result in the death of Terrell Day,
but failed to act.
37. That as a result of the deprivation of their
protected rights, the Plaintiffs, have been severely
damaged.
COUNT V - LOSS OF CHILD’S SERVICES
Plaintiff incorporates by reference rhetorical
paragraphs one (1) through thirty-eight (38) above as
if fully set forth herein and makes further allegations
and statements as follows:
38. Plaintiffs SHANIKA DAY and HARVEY
MORGAN are the natural biological parents of
Terrell Day, deceased.
39. Plaintiffs SHANIKA DAY and HARVEY
MORGAN each separately, and respectfully, had a
warm and loving relationship with their son,
Terrell Day prior to his untimely death.
40. That due to the death of their son, Terrell Day,
Plaintiffs SHANIKA DAY and HARVEY
MORGAN have been deprived of Terrell Day’s
love, companionship kindness.
41. Likewise, Plaintiffs suffer from the loss of Terrell
Day’s services and other monetary contributions.
42. That due to the actions of the WOOTEN,

71a

COVINGTON, WAGGONER, and
Plaintiffs have been severely damaged.

DENNY,

DEMAND FOR JURY TRIAL
Plaintiffs respectfully demand a jury trial in
this matter for all issues triable by jury.
WHEREFORE, Plaintiff, by Counsel, respectfully
requests that this Honorable Court assume
jurisdiction
over
this
cause;
declare
the
aforementioned conduct unlawful; award actual
damages to Plaintiff to compensate her for her
injuries; award punitive damages to deter
Defendants, and all other similarly situated, from like
conduct in the future; grant Plaintiff the costs of this
action and reasonable attorney fees; trial by jury;
award pre-judgment and statutory interest; and for all
other relief just and proper within the premises.
Respectfully Submitted,
/s/ Nathaniel Lee
Nathaniel Lee, #10159-49
Jennifer Lee, #34475-49
LEE COSSELL & CROWLEY, LLP
151 N. Delaware Street, Suite 1500
Indianapolis, Indiana 46204
(317) 631-5151 Telephone / (317) 6244561 Facsimile

72a

Appendix F
Final Judgment of the United States District Court
for the Southern District of Indiana Entered and
Dated July 1, 2020

73a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
SHANIKA DAY, Individually,
and as Administrator for the
Estate of TERRELL DAY;
and HARVEY MORGAN,
Individually,
Plaintiffs,
v.

Case No.

THE CITY OF
INDIANAPOLIS and THE
TOWN OF CUMBERLAND,

1:17-cv-04612-

Defendants.
FINAL JUDGMENT PURSUANT TO
FED. R. CIV. PRO. 58
Having this day made its Entry directing the
entry of final judgment, the Court now enters FINAL
JUDGMENT.
For the reasons detailed in the Mandate of the
United States Court of Appeals, Seventh Circuit (Dkt.
116), the Court now enters FINAL JUDGMENT in
this action in favor of Defendants the City of
Indianapolis, Sergeant Franklin Wooten in his official
and individual capacities, and Officer Randall Denny
in his official and individual capacities on each of
Plaintiff's claims. Final judgment is entered and this

74a

action is TERMINATED.
SO ORDERED.
Date: 7/1/2020
/s/ Tanya Walton Pratt
Tanya Walton Pratt, Judge
United States District Court
Southern District of Indiana
Roger A.G. Sharpe, Clerk of Court
By: /s/ Deputy Clerk
Deputy Clerk

75a

Distribution:
Faith Elizabeth Alvarez
LEE COSSEL & CROWLEY LLP
falvarez@nleelaw.com
Martin Austin Brown
RUCKELSHAUS
KAUTZMAN
BLACKWELL
BEMIS DUNCAN & MERCHANT, LLP
mab@rucklaw.com
Darren Craig Chadd
TAYLOR, CHADD, MINNETTE, SCHNEIDER &
CLUTTER, P.C.
dchadd@tcmsclaw.com
Andrew R. Duncan
RUCKELSHAUS
KAUTZMAN
BLACKWELL
BEMIS DUNCAN & MERCHANT, LLP
ard@rucklaw.com
Anne Celeste Harrigan
OFFICE OF CORPORATION COUNSEL
anne.harrigan@indy.gov
John F. Kautzman
RUCKELSHAUS
KAUTZMAN
BLACKWELL
BEMIS DUNCAN & MERCHANT, LLP
jfk@rucklaw.com
Nathaniel Lee
LEE COSSEL & CROWLEY LLP
nlee@nleelaw.com

76a

Edward J. Merchant
RUCKELSHAUS
KAUTZMAN
BLACKWELL
BEMIS DUNCAN & MERCHANT, LLP
ejm@rucklaw.com
Andrew J. Upchurch
OFFICE OF CORPORATION COUNSEL
andrew.upchurch@indy.gov
Adam Scott Willfond
OFFICE OF CORPORATION COUNSEL
adam.willfond@indy.gov

77a

Appendix G
Affidavit of Dr. Frank P. Lloyd, Jr.

78a

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
INDIANAPOLIS DIVISION
SHANIKA DAY, Individually,
and as Administrator for the
Estate of TERRELL DAY;
and HARVEY MORGAN,
Individually,
Plaintiffs,
v.

Case No.

THE CITY OF
INDIANAPOLIS and THE
TOWN OF CUMBERLAND,

1:17-cv-04612-

Defendants.
AFFIDAVIT OF DR. FRANK P. LLOYD, JR.
The undersigned, being duly sworn upon his
oath, states as follows:
1. That the undersigned herein is over the age of
eighteen (18) years and is personally familiar with
the facts herein.
2. That your Affiant was the duly elected Coroner of
Marion County (hereafter referred to as MCCO)
between 2008 and 2016. Dr. Lee Sloan is the
current elected Marion County Coroner.
3. That the MCCO investigates and determines a
person’s cause and manner of death, particularly
in cases when the individual died under unusual

79a

circumstances. The office consoles families,
advocates for the deceased, and gives information
to police and courts to prosecute suspected
criminals. MCCO is located at 521 W. McCarty
Street Indianapolis, IN 46225.
4. That on September 26, 2015, at approximately 3:38
p.m. MCCO was notified by the Indianapolis
Metropolitan Police Department to assist in the
death investigation of an 18-year-old Black Male.
It was later learned that the decedent was Terrell
Day. MCCO, Deputy Coroner, Carrier England
arrived at the scene at approximately 3:50 pm. The
location of the decedent Terrell Day was in the
10000 East 10th Street location, Indianapolis,
Indiana. The decedent was transported to MCCO
for investigation.
5. That MCCO conducted a death investigation
regarding Terrell Day. The date of death was
September 26, 2015. A postmortem examination
was performed on September 28, 2015, at MCCO.
The official cause of death was determined by
examination of the decedent utilizing generally
accepted medical and scientific methods to
determine the cause and circumstances of death.
Thus, a complete autopsy was performed at
MCCO. Photographs were taken to document the
clinical findings.
6. That during the post mortem examination, the
following persons were present:
Detective Jeff Wager (IMPD), Detective Leo
George (IMPD), Ed Charters (Indianapolis-Marion
County Forensic Service Agency), and Tyler Hoovis

80a

(IUSM transitional year resident)
7. That Dr. Joye Carter performed the post mortem
examination. That she departed new physician
have been hired by the current administration at
the MCCO.
8. That it is believed that Dr. Thomas Sosio worked
at MCCO between 2008 and 2015. That he served
as a Fellow, employee or student with Dr. Joye
Carter’s organization Biblical Dogs, Inc. between
2008 and 2015. That the organization was the
pathologist’s group for MCCO at the time of Terrell
Day’s death.
9. That at all times relevant MCCO legal
representative was the City of Indianapolis Legal
Department, Office of Corporation Counsel.
10. That the official cause of death of Terrell Day is set
forth in MCCO’s Report rendered in this matter.
11. That after conducting an investigation, reviewing
the relevant evidence, including statements by
IMPD, the MCCO rendered its opinion concerning
the cause of death of Terrell Day. In this matter,
the official cause of death of Terrell Day is as
follows: Sudden Cardiac Death due to Acute

Ischemic Change:
Contributory: Sustained
respiratory compromise due to hands cuffed
behind
the
back,
obesity,
underlying
cardiomyopathy; Manner of Death: accident.

12. That the clinical findings in this case was
consistent with the relevant evidence collected
obtained from the Indianapolis Metropolitan
Police Department, additional evidence reviewed
and collected and post mortem examination.

81a

13. That the MCCO is a municipal public safety
entity that is funded by the City of Indianapolis
annual budget along with IMPD at all times
relevant to this matter.
FURTHER, YOUR AFFIANT SAYETH NOT.
/s/ Frank A. Lloyd, Jr.
FRANK A. LLOYD, JR., M.D.
AFFIRMATION
I hereby swear and affirm under the penalties
of perjury, that the foregoing representations are true
and correct to the best of my knowledge, information
and belief.
/s/ Frank A. Lloyd, Jr.
FRANK A. LLOYD, JR. M.D.

